                   U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




         Audit Report
Food Safety and Inspection Service
   Imported Meat And Poultry
   Equivalence Determinations
             Phase III




                         Report No. 24099-05-Hy
                                 December 2003
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250




DATE:           December 29, 2003

REPLY TO
ATTN OF:        24099-05-Hy

SUBJECT:        Imported Meat and Poultry Equivalence Determinations—Phase III

TO:             Garry L. McKee
                Administrator
                Food Safety and Inspection Service

ATTN:           Ronald F. Hicks
                Assistant Administrator
                Office of Program Evaluation, Enforcement and Review


This report presents the results of the third phase of our audit of Food Safety and Inspection
Service’s (FSIS) controls to ensure that imported meat and poultry entering U.S. commerce is
safe and wholesome. In this phase, we examined FSIS’ controls for evaluating the equivalence
of foreign countries’ food safety systems. We concluded that FSIS implemented controls for
documenting, reviewing, and approving the equivalence determinations made, which improved
the agency’s oversight of foreign food safety systems.

Your staff reviewed a draft of this report in November 2003, and in consultation with them, we
determined that no exit conference was needed. The report contains no recommendations and a
response by FSIS is not required. The report is final upon issuance.

We appreciate the cooperation and assistance provided to Office of Inspector General staff during this
review.


        //s//

RICHARD D. LONG
Assistant Inspector General
  for Audit
Executive Summary
Food Safety and Inspection Service Imported Meat and Poultry Equivalence
Determinations Phase III (Audit Report No. 24099-05-Hy)

Results in Brief                   This report presents the results of the third phase of our audit of the Food
                                   Safety and Inspection Service’s (FSIS) controls to ensure that imported meat
                                   and poultry entering U.S. commerce is safe and wholesome. In this phase, we
                                   examined FSIS’ controls for evaluating the equivalence of foreign countries’
                                   food safety systems. In the first phase1 of our audit, we evaluated FSIS’
                                   controls at the management level for ensuring the safety of imported meat and
                                   poultry. During the second phase,2 we examined FSIS’ controls over the
                                   import reinspection process.

                                   FSIS is to fulfill its responsibilities for ensuring that imported meat and
                                   poultry in the U.S. marketplace is safe, wholesome, unadulterated, and
                                   properly labeled by: (1) determining if foreign countries and their
                                   establishments have implemented food safety systems and inspection
                                   requirements equivalent to those of the United States, and (2) reinspecting
                                   imported meat and poultry products from these countries, through random
                                   sampling of shipments. The reinspection process is designed to be a check on
                                   the effectiveness of foreign countries’ inspection systems.

                                   We examined FSIS’ controls for evaluating the equivalency of foreign
                                   country’s Hazard Analysis and Critical Control Point (HACCP) and
                                   Salmonella testing requirements. We also evaluated FSIS’ procedures for
                                   making the initial determination of a foreign country’s equivalency and
                                   reviewed FSIS’ actions in response to our Phase I recommendations.

                                   To accomplish these objectives, we focused on operations and decisions made
                                   from December 1999 through June 2003. We evaluated the equivalence
                                   determinations made for 32 of the 37 countries already approved to export
                                   product to the United States. These countries have exported, on average, over
                                   3.5 billion pounds of meat and poultry products annually to the United States
                                   since 1999. No new countries have been approved to export product to the
                                   United States since our prior report was issued in June 2000; however, two
                                   initial equivalence determinations were close to being finalized. Accordingly,
                                   we evaluated FSIS’ May 2002 determinations to allow: (1) Slovakia to
                                   export meat products to the United States, and (2) New Zealand to use an
                                   alternative generic E. coli testing program for bobby calves (veal).

                                   We concluded that FSIS implemented controls for documenting, reviewing,
                                   and approving the equivalence determinations made, which improved the

1
    Audit Report No. 24099-03-Hy, Food Safety and Inspection Service Imported Meat and Poultry Inspection Process Phase I, issued June 21, 2000.
2
    Audit Report No. 24099-04-Hy, Food Safety and Inspection Service Imported Meat and Poultry Reinspection Process Phase II, issued
    February 25, 2003.
USDA/OIG-AUDIT No. 24099-05-Hy                                                                                                                 i
                   agency’s oversight of foreign food safety systems. These controls were
                   followed in FSIS’ determinations of the equivalence of the HACCP and
                   Salmonella testing requirements for the 32 countries we selected for review.
                   We also found that these procedures were followed when FSIS evaluated the
                   equivalence of the residue control programs for the 33 countries already
                   approved to export product to the United States. Finally, the controls were
                   followed as FSIS made its initial equivalence determinations for Slovakia’s
                   meat inspection program and New Zealand’s alternative generic E. coli
                   testing program.

                   We found that FSIS implemented the agreed upon corrective actions for the
                   17 recommendations in our June 2000 audit report (see exhibit A).
                   Accordingly, we are making no recommendations to FSIS.




USDA/OIG-AUDIT No. 24099-05-Hy                                                               ii
Abbreviations Used in This Report


Agreement      Agreement on the Application of Sanitary and Phytosanitary Measures
CFR            Code of Federal Regulations
E. coli        Escherichia coli
FSIS           Food Safety and Inspection Service
GPRA           Government Performance and Results Act
HACCP          Hazard Analysis and Critical Control Point
SSOP           Sanitation Standard Operating Procedures




USDA/OIG-AUDIT No. 24099-05-Hy                                                       iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

General Comments ................................................................................................................................. 5

Scope and Methodology.......................................................................................................................... 6

Exhibit A – Status of Recommendations Made in our June 2000 Audit Report .............................. 7




USDA/OIG-AUDIT No. 24099-05-Hy                                                                                                                   iv
Background and Objectives
Background         The Federal Meat Inspection Act and the Poultry Products Inspection Act
                   require foreign countries that export meat and poultry products to the United
                   States to establish and maintain systems that are equivalent to the U.S.
                   inspection system. Meat and poultry imported into the United States must
                   originate in countries and plants approved to export to the United States.
                   FSIS is responsible for monitoring foreign countries and exporters to ensure
                   the countries’ food safety systems are acceptable by U.S. standards and that
                   exporters are certified as meeting those standards. FSIS is also responsible
                   for reinspecting imported meat and poultry products at ports of entry to
                   ensure that only safe, wholesome, unadulterated, and properly labeled
                   products enter U.S. commerce. Regulations governing FSIS operations are
                   codified in Title 9, Code of Federal Regulations (CFR), Chapter III.

                   A total of 37 countries are currently approved to export meat and poultry
                   products to the United States. Three of the approved countries either had no
                   establishments exporting product to the United States or had suspended trade
                   with the United States. The approved countries have exported, on average,
                   over 3.5 billion pounds of meat and poultry products annually to the United
                   States since 1999. No new countries have been approved to export product to
                   the United States since our prior audit report that was issued in June 2000.

                   FSIS administers its imported meat and poultry program primarily through
                   the Office of International Affairs, which reviews food safety requirements
                   imposed by foreign governments and inspects imported meat and poultry
                   products, and the Office of Program Evaluation, Enforcement, and Review,
                   which inspects overseas plants. Within the Office of International Affairs, the
                   International Equivalence Staff is responsible for formulating policies and
                   determining a foreign country’s eligibility to export meat and poultry
                   products to the United States. These review and inspection activities form the
                   basis of FSIS’ determinations of whether a country’s inspection systems are
                   equivalent to U.S. standards.

                   Food safety equivalence evaluations are based on provisions of the
                   Agreement on the Application of Sanitary and Phytosanitary Measures
                   (Agreement), which became effective in January 1995. Prior to the
                   Agreement, FSIS focused on individual plants and evaluated whether foreign
                   food safety systems were “at least equal to” the U.S. system. The principle
                   underlying FSIS’ current import inspection activities is the “systems
                   approach,” which evaluates the equivalence of the inspection system controls
                   of each country.



USDA/OIG-AUDIT No. 24099-05-Hy                                                                   1
                   In fiscal year 1996, FSIS published the final rule for the pathogen reduction
                   and HACCP systems. Under these systems, a country’s status as having
                   controls and performance standards equivalent to those in the United States
                   are determined in four areas.

                   • HACCP. All plants must develop, adopt, and implement a HACCP plan
                     for each of their processes. Under HACCP, plants identify critical control
                     points during their processes where hazards such as microbial
                     contamination can occur, establish controls to prevent or reduce those
                     hazards, and maintain records documenting that controls are working as
                     intended.

                   • Mandatory Generic Escherichia coli (E. coli) testing in slaughter plants.
                     All meat and poultry slaughter plants are required to conduct microbial
                     testing of carcasses for generic E. coli as an indicator of the adequacy of
                     the plant’s control over fecal contamination.

                   • Pathogen reduction performance standards for Salmonella. Slaughter
                     plants and plants producing raw ground products are required to ensure
                     that their Salmonella contamination rate is below the current national
                     baseline incidence.

                   • Sanitation Standard Operating Procedures (SSOP). All plants were
                     required to implement plant-specific operating procedures for sanitation to
                     ensure they were meeting their responsibility to keep their facilities and
                     equipment clean.

                   Countries that had food safety systems “at least equal to” the United States
                   were allowed to continue to export meat and poultry to this country while
                   FSIS evaluated the equivalence of these systems under the pathogen reduction
                   and HACCP standards. FSIS did not suspend trade with exporting countries
                   while this process was underway. A total of 37 countries were approved
                   under the “equal to” system. The burden for demonstrating equivalence rests
                   with the exporting country and the importing country is free to set any level of
                   protection it deems appropriate to control or eliminate a food safety hazard.

                   Before a foreign country can initially export meat or poultry to the United
                   States, it must apply for a determination of equivalency. The application
                   must contain enough technical and scientific evidence for FSIS to determine
                   that the country’s sanitary measures, oversight, and enforcement are
                   equivalent to the U.S. system. This evaluation is to consist of a document
                   review and an onsite equivalency verification review. The initial equivalence
                   determination for a new trading partner is subject to notice and comment rule
                   making when the country is listed in the CFR as eligible to export to the
                   United States.
USDA/OIG-AUDIT No. 24099-05-Hy                                                                    2
                   A document review is an evaluation of laws, regulations, directives and other
                   written material used by the foreign country to operate its inspection program.
                   FSIS will evaluate the country’s inspection system in five risk areas, which
                   include controls over animal diseases, sanitation, enforcement, residue, and
                   slaughter and processing. If the document review finds the country’s system
                   satisfactory, FSIS will conduct an onsite equivalency verification review to
                   evaluate the foreign country’s oversight program and practices, and to
                   determine whether system controls are operating as represented to FSIS.

                   After a country is determined to have an equivalent system and is eligible to
                   export to the United States, FSIS will rely on the country to carry out daily
                   inspections. However, FSIS will monitor the country’s activities. Besides
                   randomly sampling meat and poultry products for reinspection as they enter
                   the United States, FSIS will conduct onsite reviews of the country’s
                   inspection system to ensure that its procedures and standards remain
                   equivalent. Reviewers will visit certified plants and focus on the five areas of
                   risk (i.e., animal disease, sanitation, enforcement, residue, and slaughter and
                   processing). These reviews are generally conducted annually.

                   During the first phase of our audit, we evaluated FSIS’ controls at the
                   management level for ensuring that imported meat and poultry entering the
                   U.S. consumer channels was safe and wholesome. Overall, we found that
                   FSIS’ management control over the import inspection program needed to be
                   enhanced. This included enhancement of FSIS’ documentation of approved
                   foreign food safety systems. In addition, we concluded that the import
                   reinspection process did not ensure that ineligible importers were properly
                   identified and that recognized pathogen violations were responded to
                   promptly. These results were reported in Audit Report No. 24099-03-Hy,
                   Food Safety and Inspection Service Imported Meat and Poultry Inspection
                   Process Phase I, issued June 21, 2000.

                   During the second phase of our audit, we examined FSIS’ controls over the
                   import reinspection process, which included visits to import inspection
                   houses. We also reviewed FSIS’ action in response to 18 of the 35 Phase I
                   recommendations. Overall, we concluded that FSIS had made minimal
                   progress toward establishing an effective import reinspection process, even
                   though the agency agreed to do so in response to our June 2000 audit report.
                   FSIS’ management information system contained weaknesses that raised
                   concerns about the safety of imported products. Finally, FSIS needed to
                   clarify agency authority over imported product. These results were reported
                   in Audit Report No. 24099-04-Hy, Food Safety and Inspection Service
                   Imported Meat and Poultry Reinspection Process Phase II, issued
                   February 25, 2003.



USDA/OIG-AUDIT No. 24099-05-Hy                                                                    3
Objectives         The objective of our review was to evaluate FSIS’ equivalency determinations
                   for HACCP and Salmonella for countries already approved to export products
                   to the United States and FSIS’ procedures for making the initial determination
                   of a foreign country’s eligibility to export products to the United States. We
                   also determined the extent to which FSIS implemented recommendations
                   related to equivalence determinations from our June 2000 audit report and
                   evaluated the applicable performance measures and controls governing the
                   validity of data FSIS reported in the Government Performance and Results
                   Act (GPRA) annual plan.

                   To accomplish these objectives, we focused on operations and decisions made
                   by FSIS from December 1999 through June 2003. We evaluated the
                   equivalence determinations made for 32 of the 37 countries already approved
                   to export product to the United States. We also evaluated FSIS’ process for
                   making initial equivalence determinations by reviewing the May 2002
                   determination to allow the country of Slovakia to export meat products to the
                   United States. Finally, we reviewed FSIS’ May 2002 determination to allow
                   New Zealand to use an alternative generic E. coli testing program for bobby
                   calves.




USDA/OIG-AUDIT No. 24099-05-Hy                                                                  4
General Comments
                   In response to our June 2000 audit report, FSIS implemented controls for
                   documenting, reviewing, and approving the equivalence of foreign countries’
                   food safety systems. These controls included such things as a formalized
                   process for making the equivalence determination and using technical subject
                   matter experts. We found that these controls were followed in the agency’s
                   determinations of the equivalence of the HACCP and Salmonella testing
                   requirements for 32 of the 37 countries already approved to export product to
                   the United States. These countries have exported, on average, over 3.5 billion
                   pounds of meat and poultry products annually to the United States since 1999.
                   See Exhibit A for a summary of FSIS’ actions to address 17 of the 35
                   recommendations made in our June 2000 audit report.

                   We also found that FSIS implemented the control procedures when evaluating
                   the equivalence of the residue control programs for 33 countries. Based on an
                   initial assessment of the residue control programs, FSIS concluded that each
                   country had an adequate residue control program. FSIS is in the process of
                   finalizing its review for all countries. This review has been completed for the
                   countries that traditionally import the most product into the United States
                   (i.e., Canada, Australia, New Zealand, and Denmark).

                   Finally, we found that established procedures were followed when FSIS
                   determined in May 2002, that Slovakia should be allowed to export meat
                   products to the United States and New Zealand should be allowed to use an
                   alternative generic E. coli testing program for bobby calves.

                   FSIS’ implementation of the controls to document, review, and approve
                   equivalence determinations strengthens the data the agency reports in its
                   annual performance report required by GPRA. Two of the indicators that
                   FSIS uses to assess its performance are to determine: (1) the number of
                   countries meeting the HACCP equivalency standards and exporting to the
                   United States, and (2) the number of foreign program reviews conducted to
                   ensure international equivalency and maintain export eligibility to the United
                   States.




USDA/OIG-AUDIT No. 24099-05-Hy                                                                   5
Scope and Methodology
                                     To evaluate FSIS’ equivalency determinations for HACCP and Salmonella,
                                     we focused our review on operations and decisions made from
                                     December 1999 through June 2003. FSIS announced its determinations
                                     regarding the equivalence of foreign food safety systems based on pathogen
                                     reduction and HACCP requirements at a public meeting on
                                     December 14, 1999. We evaluated the determinations made for 32 of the 37
                                     countries already approved to export product to the United States.

                                     We evaluated FSIS’ procedures for making the initial determinations of
                                     equivalency by reviewing the May 2002 determination to allow the country of
                                     Slovakia to export meat products to the United States. We also reviewed the
                                     May 2002 determination to allow New Zealand to use an alternative generic
                                     E. coli testing program for bobby calves. These were the determinations that
                                     were closest to being finalized since our last audit.3

                                     We performed work at FSIS’ Headquarters in Washington, D.C. and the
                                     Technical Service Center in Omaha, Nebraska. To fulfill our objectives, we
                                     discussed current operations with FSIS staff and reviewed supporting
                                     documentation. We concentrated on the responsibilities of the International
                                     Equivalence Staff and the Foreign Review Staff.            The International
                                     Equivalence Staff is within the Office of International Affairs. The Foreign
                                     Review Staff is within the Office of Program Evaluation, Enforcement, and
                                     Review. Our review included analysis of records and other documents and
                                     discussions with responsible officials to determine if agency responsibilities
                                     are being carried out as intended by regulation.

                                     We conducted our work between August 2000 and August 2003 in
                                     accordance with generally accepted Government auditing standards.




3
    Audit Report No. 24099-03-Hy, Food Safety and Inspection Service Imported Meat and Poultry Inspection Process Phase I, issued June 21, 2000.

USDA/OIG-AUDIT No. 24099-05-Hy                                                                                                                     6
Exhibit A – Status of Recommendations Made in our June 2000 Audit Report
                                                                                                                                  Page 1 of 5

                                     The following table shows the actions taken by FSIS to address 17 of the 35
                                     recommendations made in our June 2000 audit report, related to the
                                     equivalence determination portion of FSIS’ import inspection operations.
                                     (The remaining 18 recommendations were evaluated as part of our review of
                                     the import reinspection process, Audit Report No. 24099-04-Hy,
                                     FSIS Imported Meat and Poultry Reinspection Process Phase II, issued
                                     February 25, 2003.)


                                            Phase I Report Recommendations                                     Agency Action


                                       8.    Prior to the onsite review, ensure that the        Through procedures developed and
                                             Technical Service Center (TSC)                     implemented in August 2002, FSIS
                                             reviewers are provided with all                    standardized the type of documentation to
                                             information necessary to verify data               be maintained in the TSC files. This
                                             provided by foreign countries for                  documentation included such items as
                                             equivalence determinations.                        foreign country cables, product complaints,
                                                                                                foreign plant listings and delistments,
                                                                                                general correspondence, review plans and
                                                                                                itineraries, review reports, review notes,
                                                                                                checklists, summaries, and enforcement
                                                                                                actions. We validated the procedures were
                                                                                                implemented by reviewing a sample of files
                                                                                                maintained by the foreign review staff at
                                                                                                the TSC.

                                      10. With the help of technical subject-matter             FSIS developed and implemented these
                                          experts,   develop     and    implement               comprehensive written guidelines. They
                                          comprehensive guidelines as a means of                are documented as part of FSIS’
                                          ensuring propriety and consistency in                 Equivalence Management Controls.4 We
                                          decisions     involving      equivalency              confirmed that FSIS consistently used these
                                          determinations.                                       guidelines for making ongoing equivalence
                                                                                                determinations for HACCP and Salmonella
                                                                                                testing requirements and for making initial
                                                                                                equivalence determinations. Through a
                                                                                                review of FSIS’ foreign country review
                                                                                                reports, we found that FSIS developed
                                                                                                standardized methods for collecting and
                                                                                                analyzing information about the ongoing
                                                                                                equivalence of foreign countries HACCP
                                                                                                and Salmonella testing requirements.



4
    FSIS’ Equivalence Management Controls was first issued in January 2001. The procedures were updated in September 2001 and other updates will be
    made, as necessary.
USDA/OIG-AUDIT No. 24099-05-Hy                                                                                                                        7
                                                                                                Page 2 of 5



                     Phase I Report Recommendations                           Agency Action


                  11. Develop written criteria and procedures     FSIS’ Office of International Affairs
                      for suspending the eligibility of           developed     and    implemented      these
                      exporting countries that do not provide     procedures in March 2003. They are a part
                      sufficient documentation to support their   of FSIS’ Equivalence Management
                      continuing compliance with U.S.             Controls. We verified that the procedures
                      equivalency standards or are found to be    were in use through review of files and
                      in noncompliance based on the results of    information maintained by the International
                      an onsite equivalency review.               Equivalence Staff.

                  12. Develop written procedures, which           FSIS developed and implemented these
                      ensure comprehensive evaluations of         procedures as part of its Equivalence
                      foreign countries' alternative import       Management Controls. Through review of
                      inspection methods, and require the         files maintained by the International
                      analysis of these systems be documented,    Equivalence Staff, we confirmed that
                      as well as the decisions reached.           equivalence decision files contain: 1) FSIS
                                                                  correspondence with foreign countries;
                                                                  2) Foreign country submissions (translated
                                                                  and in the originating language);
                                                                  3) Summary reviews of submissions;
                                                                  4) Summary of meetings and teleconferences
                                                                  with foreign officials; 5) Summary of
                                                                  reviews     by    subject-matter    experts;
                                                                  6) Documentation of equivalence criteria;
                                                                  7) Summary of FSIS formal reviews and
                                                                  approvals; and 8) Decision memorandum of
                                                                  the equivalence determinations.




USDA/OIG-AUDIT No. 24099-05-Hy                                                                                   8
                                                                                                    Page 3 of 5




                     Phase I Report Recommendations                               Agency Action


                  23. Establish procedures to ensure that all        FSIS proposed an alternative action in
                      residue documents submitted by foreign         response     to    Recommendation       Nos.
                      countries are received, reviewed, and          23 through 26, which OIG accepted for
                      analyzed based on requirements outlined        management decision. FSIS developed and
                      in regulations.                                implemented procedures for reviewing
                                                                     foreign countries’ residue control programs,
                  24. Obtain the residue test plans not              which included an initial determination
                      submitted since 1998 to determine if the       based on the review of documents followed
                      foreign countries have residue control         by an indepth review of program operations
                      standards equivalent to the United States.     in the foreign country. FSIS also developed
                                                                     and implemented procedures for taking
                  25. Obtain and analyze the residue test plan       appropriate actions when violations are
                      results not submitted since 1998 to            detected.
                      determine the adequacy of foreign
                      countries' adherence to their residue test
                      plans.                                         Through review of FSIS’ documentation of
                                                                     its review of 33 foreign countries’ residue
                  26. Develop procedures to ensure that (a) a        control programs, we verified that FSIS
                      review of residues identified by the           completed its initial determination by
                      exporting country's meat inspection            April 2001. Based on this, FSIS concluded
                      authorities or by FSIS as potential            that each country had an adequate residue
                      contaminants are included as part of the       control program. FSIS is in the process of
                      Technical     Service      Center     onsite   finalizing its reviews of each country’s
                      equivalency reviews, and (b) appropriate       submission. The final determinations are
                      action is taken in those instances where       documented in a decision memorandum that
                      the plans are inadequate, the results vary     is prepared by the Equivalence Staff
                      from the plans, or violations are detected.    Officer, approved by the Director of the
                                                                     International Equivalence Staff, and
                                                                     concurred with by the Deputy Assistant
                                                                     Administrator for International Affairs.
                                                                     These determinations have been completed
                                                                     for the countries that traditionally import
                                                                     the most product into the United States (i.e.,
                                                                     Canada, Australia, New Zealand, and
                                                                     Denmark).




USDA/OIG-AUDIT No. 24099-05-Hy                                                                                        9
                                                                                                 Page 4 of 5


                       Phase I Report Recommendations                             Agency Action


                   27. Develop procedures that require the             FSIS developed formal procedures for
                       participation of technical subject-matter       participation of technical subject-matter
                       experts, as appropriate, in equivalency         experts, as appropriate, in equivalence
                       determinations, and document the experts'       determinations. These procedures are part
                       participation, analyses, and conclusions.       of FSIS’ Equivalence Management
                                                                       Controls. See also FSIS’ actions in
                                                                       response to Recommendation No. 10.

                   28. Document and implement a system of              FSIS implemented this system of controls
                       internal controls to ensure the adequacy        as part of the Equivalence Management
                       and support for foreign equivalency             Controls. The equivalence decision files
                       determinations. This should include a           contain the sections listed in response to
                       formal review and approval process for the      Recommendation No. 12.
                       equivalence determinations made.

                   29. Develop a management control process            FSIS agreed that equivalence decisions
                       and procedures to ensure equivalence            should be adequately documented and that
                       decisions are adequately documented. The        the files must be complete. Therefore,
                       procedures should require that files contain    FSIS instituted the same measures
                       supporting evidence, including detailed         described in response to Recommendation
                       analysis of information received and            No. 28.
                       reviewed, resolution of issues raised during
                       the review process, and conclusions
                       reached.

                   30. Establish a time-phased plan to expedite        FSIS implemented time-phased plans for
                       the process for determining equivalency.        future equivalence determinations, which
                                                                       are documented as part of the agency’s
                                                                       Equivalence Management Controls.

                   31. Ensure that onsite audits for current trading   FSIS incorporated this requirement as
                       partners are conducted at least annually.       part of its Equivalence Management
                                                                       Controls.

                   32. For current trading partners, develop and       FSIS revised its onsite review procedures
                       implement a policy for onsite verifications     to verify any changes in requirements.
                       of changes in the requirements for foreign      This is documented as part of FSIS
                       inspection systems.                             Equivalence Management Controls.




USDA/OIG-AUDIT No. 24099-05-Hy                                                                                10
                                                                                                  Page 5 of 5



                    Phase I Report Recommendations                              Agency Action

                33. Clarify the regulations regarding FSIS’        FSIS proposed an alternative action to
                    procedures for determining equivalence for     Recommendation No. 33, which OIG
                    current trading partners, taking into          accepted for management decision. FSIS
                    consideration major changes such as            revised its onsite review procedures to ensure
                    HACCP       and     pathogen    reduction      that major changes such as HACCP and
                    requirements.                                  pathogen reduction requirements are
                                                                   considered       when      determining     the
                                                                   equivalence for current trading partners.
                                                                   These revised procedures are part of FSIS’
                                                                   Equivalence Management Controls. FSIS
                                                                   documents this information as referenced in
                                                                   response to Recommendation No. 12.
                34. Ensure that reporting and evidence             FSIS standardized the format of its review
                    standards developed for equivalency            reports to address the following five risk
                    verification reviews provide for appropriate   areas: 1)     animal      disease     controls;
                    documentation of all areas required to be      2) sanitation     controls;    3) enforcement
                    reviewed by regulation.                        controls; 4) slaughter and processing
                                                                   controls; and 5) residue controls. These five
                                                                   risk areas cover all of the FSIS regulatory
                                                                   requirements for countries that export to the
                                                                   United States.
                35. Develop procedures for timely completing       FSIS       developed     and      implemented
                    reports documenting reviews of foreign         procedures, which set timeframes for
                    inspection systems.                            drafting the report, issuing the report to the
                                                                   foreign country, and obtaining the foreign
                                                                   country’s response. The procedures are
                                                                   documented as part of FSIS’ Equivalence
                                                                   Management Controls.




USDA/OIG-AUDIT No. 24099-05-Hy                                                                                 11
